Report Fraud, Waste, and Abuse

1-800-269-0271




     www.socialsecurity.gov/oig
                                         Social Security Administration
     SSA OIG Pub. No. 85-007          Office of the Inspector General
        Published May 2006        Semiannual Report to Congress
                                       October 1, 2005 – March 31, 2006
Social Security Administration
Office Of The Inspector General

                                             How to Report Fraud
    Mission Statement
                                   The SSA OIG Fraud Hotline offers a means for you
By conducting independent and
objective audits, evaluations,     to provide information on suspected fraud, waste, and
and investigations, we improve     abuse. If you know of current or potentially illegal
the SSA programs and               or improper activities involving SSA programs or
operations and protect them        personnel, we encourage you to contact the SSA OIG
against fraud, waste, and abuse.
                                   Fraud Hotline.
We provide timely, useful, and
reliable information and advice
                                       Call the SSA OIG Fraud Hotline toll-free number
to  Administration officials,
Congress, and the public.                    1-800-269-0271 (TTY: 1-866-501-2101)

                                           Write:	 Social Security Administration
     Vision and Values             	               Office of the Inspector General
We are agents of positive          	               Attention: SSA Fraud Hotline
change striving for continuous     	               P. O. Box 17768
improvement in SSA’s programs,     	               Baltimore, MD 21235
operations, and management by
proactively seeking new ways to                       Fax: 410-597-0118
prevent and deter fraud, waste,
and abuse. We are committed
to integrity and to achieving                  email: OIG.HOTLINE@ssa.gov
excellence by supporting an
environment that encourages        To obtain additional copies of this report or learn
employee development and           more about reporting fraud, please visit our website
retention, and fosters diversity
and innovation, while providing    at www.socialsecurity.gov/oig
a valuable public service.
 October 1, 2005 Thru March 31, 2006	                               SSA Office of the Inspector General




A Message from the Inspector General
Winston Churchill said, “If we are together, nothing is impossible. If we are
divided all will fail.” He spoke of the Allied effort in World War II, but his
message resonates more than half a century later and an ocean away, where the
Government of the United States works tirelessly to meet challenges unheard
of, even undreamt of, in Churchill’s time.
From terrorist acts that remind us of the fragility of the human condition
to natural disasters that remind us that we are merely passengers on this
planet, subject to nature’s wrath and mercy, we see again and again that as a
government, we can serve adequately only through a combined, coordinated,
and concerted effort.
The title of this report is “Working Together,” a statement deceptive in its
apparent simplicity, but understated in its urgency. For the 608 employees of the
Office of the Inspector General, it is a credo infused in our every action. Whether it is our auditors
working with our investigators to ensure that surveillance videos are considered in reaching disability
determinations or our investigators working with our attorneys to provide evidence in support of the
imposition of civil penalties, we work hand in hand every day, every week, on everything we do.
But this unity is not limited to our internal efforts. On a daily basis, we join forces with countless other
Federal, State, and local government agencies to maximize resources, share expertise, and exchange
information. Whether on fugitive task forces or identity theft workgroups, in training conferences,
audit forums, or in limitless other combinations—not the least of which is the President’s Council
on Integrity and Efficiency—we continue to follow Churchill’s advice.
Two of our most important partners, of course, are the Social Security Administration and the
United States Congress. Nowhere is this theme of working together more apparent, or more
important, than in our close relationships with the Agency we serve and with the lawmakers to
whom we answer. No Inspector General enjoys a more supportive and cooperative relationship with
his or her Agency than I do with the Commissioner of Social Security and her 65,000 employees.
Day in and day out, we work together to improve the Agency’s critical mission. And in our frequent
dealings with Capitol Hill, we strive to provide timely and accurate information, and work with
Senators, Congressmen, and staff to craft legislation that reflects Congress’ commitment to the
People and furthers our own mission—to prevent and detect fraud, waste, and abuse in Social
Security programs and operations.
What Churchill said eloquently, Casey Stengel said somewhat more informally: “Gettin’ good players
is easy. Gettin’ ‘em to play together is the hard part.” Our Government is full of good players, none
better than the men and women of this Office. This report is a testament to their ability to play
together, and to the results of that effort.
Sincerely,

S
Patrick P. O’Carroll, Jr.
Inspector General


                                                                                                               
    Semiannual Report to Congress	   October 1, 2005 Thru March 31, 2006





October 1, 2005 Thru March 31, 2006	                                       SSA Office of the Inspector General




                  Semiannual Report to Congress
                           Working Together

         Contents
         A Message from the Inspector General...............................1

         Executive Summary.............................................................5

         Introduction to Our Organization......................................7

         Impact..................................................................................8

         Value..................................................................................21

         People.................................................................................31

         Reporting Requirements and Appendices.........................35

         Glossary of Acronyms .......................................................48




                                                                                                                 
             Semiannual Report to Congress	   October 1, 2005 Thru March 31, 2006




  •  Executive Summary
 October 1, 2005 Thru March 31, 2006	                           SSA Office of the Inspector General




Executive Summary
The first half of this first decade of the new century has been rife with challenges born
of both natural and man-made disasters. The reaction of the American people to these
challenges reminds us that our country’s strongest asset is the resilience of the American
spirit to withstand hardship by “Working Together.” In this report, by which we proudly
present the accomplishments of the women and men of the Office of the Inspector General
(OIG) during the past 6 months, we will show how our auditors, investigators, attorneys,
and critical support staff have worked together for the purpose of preventing fraud, waste
and abuse in the Social Security Administration’s (SSA) programs and operations, and how
these efforts have strengthened the integrity of government and contributed to the Nation’s
safety and security.
Our noteworthy achievements are documented in the sections of this report that correspond
to the three major areas of our Strategic Plan.
• Our impact on SSA’s programs and operations;
• The value we provide to SSA, the Congress, and the public; and
• The initiatives we undertake to enhance the work experience of our people.
Our combined efforts in the areas of audit, investigation, and legal work generated a positive
return. The following information summarizes our achievements for this reporting period.
Our auditors issued 44 reports with recommendations identifying over $96 million in
questioned costs and over $1.4 million in Federal funds that could be put to
better use.
Our audit work covered areas ranging from Title II and Title XVI overpayment-
                                                                                           During this period,
related issues, to reviews of selected Disability Determination Services (DDS) to         OIG issued 44  audit
evaluate their internal accounting controls of administrative costs. We reviewed               reports with
SSA’s compliance with Title XVI overpayment write-off procedures, the adequacy
of SSA’s Title II waiver approval process, and whether decisions to terminate               recommendations
collection of Title II overpayment debt were in accordance with the Agency’s              identifying over $96
policies and procedures. We also looked at whether SSA had fully identified all of        million in questioned
the SSI recipients who might be eligible for benefits under the Title II program,
and suggested system enhancements to assist with this task.                                costs and over $1.4
Our investigators reported over $139 million in investigative accomplishments,           million in Federal funds
with over $29 million in SSA recoveries, restitution, fines, settlements, and             which could be put to
judgments, and over $109 million in projected savings from investigations                       better use.
resulting in the suspension or termination of benefits. We closed over 5,400
criminal and administrative investigations, resulting in over 2,800 arrests
and indictments and over 1,500 convictions, civil monetary penalty (CMP)
assessments and apprehensions of illegal aliens. In addition, our investigators worked on
multi-agency investigations that resulted in over $47 million in savings, restitution and
recoveries for other agencies.



                                                                                       Executive Summary  •  
             Semiannual Report to Congress	                                 October 1, 2005 Thru March 31, 2006




             We built on the success of the Cooperative Disability Investigations (CDI) program, a joint
             effort of the OIG, SSA, State DDSs, and State and local law enforcement personnel, utilizing
             19 CDI units located in 17 States to obtain sufficient evidence to identify and resolve issues of
             fraud and abuse related to initial and continuing disability claims. During this reporting period,
             the efforts of our CDI teams resulted in almost $66 million in SSA program savings.
             Our efforts to identify fugitive felons and parole and probation violators via automated data
             matches between SSA’s beneficiary rolls and a number of Federal and State warrant databases
             contributed to the arrest of over 5,100 fugitives during this reporting period—and a total of
             over 38,000 arrests since the program’s inception in August 1996.
            Included in the investigative accomplishments total is $1.1 million in penalties and assessments
            that our attorneys imposed through our CMP program. During this reporting period, we
                                       initiated 103 cases involving false statements or representations made
                                       in connection with obtaining or retaining benefits or payments under
                                       Titles II and XVI of the Social Security Act (the Act) (Section 1129
                                       cases). In addition, we processed 43 complaints and closed 7 cases
          Our CMP program              dealing with forms of misleading advertising and communication
            imposed $1.1               prohibited by Section 1140 of the Act because of misleading use of
          million in penalties         SSA’s program words, symbols, or emblems. We resolved almost all
                                       of these through voluntary compliance.
          and assessments for
          the first half of this       During this reporting period, we participated in five Congressional
                                       hearings. Four of these hearings addressed integrity issues relating to
               fiscal year.            the Social Security Number (SSN) and the enumeration process. One
                                       hearing addressed the issue of unauthorized workers in the United
                                       States and how it contributes to one of SSA’s greatest challenges—
                                       erroneous wage reports held in the Earnings Suspense File (ESF).
             By continuing to work together on these critical issues, we believe our efforts will result in
             strengthening the security of the enumeration and wage reporting processes—processes that
             are most basic to SSA’s mission.
             Working together. Within the OIG, with SSA, with Congress, the Government Accountability
             Office, other agencies, State and local partners, and with other OIGs through the President’s
             Council on Integrity and Efficiency (PCIE), the combined Government efforts detailed in this
             report reflect our unwavering commitment to integrity and demonstrate this commitment to
             the American people and those they have elected to govern them.




  •  Executive Summary
 October 1, 2005 Thru March 31, 2006	                                SSA Office of the Inspector General




Introduction to Our Organization
SSA OIG is comprised of the Immediate Office of the Inspector General and four major components: the Office
of Audit, the Office of Investigations, the Office of the Chief Counsel to the Inspector General, and the Office of
Resource Management.
Immediate Office of the Inspector General (IO)
IO provides the Inspector General with staff assistance on the full range of his responsibilities. IO staff
provide liaison services with all agencies sharing an interest or a role with OIG and assure coordination
with Congressional committees, SSA, the Social Security Advisory Board and the President’s Council on
Integrity and Efficiency. The Office of Quality Assurance and Professional Responsibility (OQAPR), part
of the IO, is responsible for two critical functions—it conducts exhaustive reviews of each of the OIG’s
component offices to ensure compliance with Federal laws and regulations, Agency policies, and relevant
professional standards and also performs OIG’s Professional Responsibility function, conducting thorough
and timely investigations should allegations of misconduct be lodged against an OIG employee.
Office of Audit (OA)
OA conducts and supervises financial and performance audits of SSA programs and operations and makes
recommendations to ensure that program objectives are achieved effectively and efficiently. Financial audits
assess whether SSA’s financial statements fairly present SSA’s financial position, results of operations, and
cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations, and other projects on
issues of concern to SSA, the Congress, and the general public.
Office of Investigations (OI)
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and mismanagement in
SSA programs and operations. This includes wrongdoing by applicants, beneficiaries, contractors, and
third parties, as well as by SSA employees while performing their official duties. This office serves as OIG
liaison to the Department of Justice (DOJ) on all matters relating to the investigation of SSA programs
and personnel. OI also conducts joint investigations with other Federal, State, and local law enforcement
agencies.
Office of the Chief Counsel to the Inspector General (OCCIG)
OCCIG provides independent legal advice and counsel to the Inspector General on a wide range of issues,
including statutes, regulations, legislation, and policy directives. OCCIG advises the Inspector General
on investigative procedures and techniques, as well as on legal implications and conclusions to be drawn
from audit and investigative material. OCCIG also administers the CMP program. This office manages
OIG’s external and public affairs program, preparing OIG publications and handling Congressional, media
and public requests for information.
Office of Resource Management (ORM)
ORM provides administrative and management support to the Inspector General and OIG components. ORM
formulates and executes the OIG budget and confers with the Office of the Commissioner, the Office of Management
and Budget (OMB) and the Congress on budget matters. ORM is responsible for strategic planning and performance
reporting, and facility and property management. ORM develops and maintains OIG’s administrative and management
policy and procedures and performs all human resource support activities for OIG. ORM also plans, designs, develops,
tests, implements, and maintains hardware, software, and telecommunications networks to support OIG’s mission.
                                                                         Introduction to Our Organization  •           
                Semiannual Report to Congress	                                  October 1, 2005 Thru March 31, 2006




                Impact
                The OIG is committed to enhancing SSA’s effectiveness and efficiency through our investigations,
                audits, and legal activities. Through our best efforts, we strive to have maximum impact on SSA’s
                programs and operations in order to best assure the continued integrity and reliability of the
                Social Security programs.
                During this reporting period, we completed many audits, investigations, and legal initiatives,
                covering major SSA program and management areas, which have significant impact on the
                deterrence of fraud, waste, and abuse. The summaries presented below are indicative of our
                work in this area.

                Audit Impact Initiatives
                OA contributes to this objective by conducting and supervising comprehensive financial and
                performance audits of SSA’s programs and operations and by making recommendations to
                maximize the effective operations of the Social Security programs. These audits, along with
                short-term management and program evaluations, focus on those SSA programs and activities
                most vulnerable to fraud and abuse.

                Benefit Payment Issue: Reversal of Disability Denial Decisions Using Investigative
                Information from CDI Units
                The CDI program, jointly managed by SSA and OIG, seeks to obtain evidence sufficient to
                resolve questions of fraud in SSA’s disability programs. This audit looked at investigations from
                July 1999 through July 2005. CDI investigations were used to support over 8,000 decisions to
                deny benefits at the initial, reconsideration, or hearing level, realizing an estimated $492 million
                savings in improper payments.
                The Office of Disability Adjudication and Reviews (ODAR) conducts hearings before an
                administrative law judge (ALJ) who issues decisions regarding disability. Our review of 100 ALJ
                decisions, in cases in which an investigation had been conducted, found that ALJs may not
                have always been aware that an investigation was conducted at a prior decision level, or may
                not have always considered the investigative report in making the disability decision. Of the
                100 decisions reviewed, 97 paper disability folders were not clearly marked to indicate that an
                investigation had been conducted, 40 investigative reports were missing from the paper folders,
                28 investigative reports were not included on the exhibit list, and 59 investigative reports were
                not discussed in the ALJ decision.
                We recommended that SSA: (1) provide instructions in their Program Operations Manual
                System (POMS ) on which component is responsible for filing the investigative report, and flag
                the electronic folder (EF) to identify cases where an investigation was conducted; (2) ensure that
                the link to the CDI report cannot be removed from the EF; (3) remind ALJs to document the
                use of the investigative report in the hearing decision; (4) encourage ALJs to request CDI unit
                investigators and third parties to testify at hearings when needed; (5) encourage ALJs to request




   •  Impact
October 1, 2005 Thru March 31, 2006	                             SSA Office of the Inspector General




from SSA and DDSs additional evidence from CDI units when warranted; and (6)  require
that surveillance videos be included in the multimedia evidence section of the EF.
SSA agreed with the intent of our recommendations, but stated that it would not be cost effective
to implement recommendation 2 at this time, nor could recommendation 6 be implemented
as the technology does not currently exist to allow inclusion of surveillance video in the EF.
Regarding recommendation 6, OIG is now working with SSA to expand the multimedia section
of the EF and, to that end, is currently preparing a request for the Information Technology
Advisory Board to accommodate video surveillance.

SSA Agency Operations: SSA’s Independence Day Assessment (IDA)
IDA procedures are used to decide when a DDS is ready to implement the EF system as part of
SSA’s e­­Dib (electronic disability) initiative. To determine when a DDS is ready to implement
the EF, SSA developed a four-step IDA certification process: (1) Assessment Visit; (2) Training
Verification; (3) Record-Keeping Requirements Certification; and (4) Validation Visit.
Our review focused on the IDA certifications of the Mississippi and Illinois DDSs – the first
two DDSs certified by SSA to operate in a fully electronic environment. We found that SSA’s
IDA procedures were generally effective for deciding when a DDS is ready to implement the
EF, and that SSA generally followed the IDA procedures to certify the Mississippi and Illinois
DDSs. Further, critical discrepancies–those issues that could potentially affect the outcome
of the disability decision and the completeness of the EF–were generally resolved or alternate
processes were implemented by SSA prior to the certification of the Mississippi and Illinois
DDSs.
We found that the IDA certification process could be strengthened and recommended that SSA:
(1) maintain documentation that outlines the actions taken to resolve significant issues identified
during the IDA process; (2) resolve or schedule for resolution computer system problems
reported at the time of the Validation Visit; (3) continue efforts to develop a comprehensive
workaround resolution plan; and (4) periodically distribute the best practices of certified DDSs
to DDSs preparing for the IDA process. SSA agreed with our recommendations.

Benefit Payment Issue: SSA’s Identification of Special Disability Workload
(SDW) Cases
Studies SSA conducted as of November 2004 identified approximately 466,000 Supplemental
Security Income (SSI) recipients who were potentially eligible for benefits under the Old Age,
Survivors, and Disability Insurance (OASDI) program. The Agency has defined these as Special
Disability Workload (SDW) cases. SSA assembled regional cadres of technical experts to work
with field offices, Federal/State DDSs, program service centers, and SSA’s Office of Central
Operations to identify and assess the SDW cases.
Our audit objective was to determine whether SSA had fully identified the universe of SDW
cases, and had taken action to implement systems enhancements to prevent future SDW
cases. Although SSA undertook several studies to identify all SSI recipients who appeared to
be insured for OASDI benefits, and had implemented systems enhancements to assist with



                                                                                                       Impact  •  
                 Semiannual Report to Congress	                                  October 1, 2005 Thru March 31, 2006




                 processing the cases, additional groups of cases were later identified. SSA failed to fully identify
                 potential Title II eligibility factors, and weaknesses in systems programming limited the Agency’s
                 ability to identify all SSI recipients who may be eligible for Title II benefits.
                 OIG recommended that SSA: (1) ensure that systems enhancements to identify SSI recipients
                 who may be eligible for Title II benefits are made a top priority and implemented timely; and
                 (2) continue to process SDW cases, and pay benefits for those SDW cases determined to be
                 eligible for Title II benefit payments. SSA agreed with our recommendations.

                 SSN Protection: Hospitals’ Use and Protection of SSNs
                 Many hospitals routinely use SSNs in their admission procedures, record-keeping, and various
                 other business practices. Though no single Federal law regulates use and disclosure of SSNs,
                 the Social Security Act and the Privacy Act of 1974 contain provisions that govern disclosure of
                 SSNs. Additionally, the Health Insurance Portability and Accountability Act of 1996 addresses
                 the privacy and security of all “individually identifiable health information.”
                 Our objective was to assess hospitals’ use and protection of SSNs and the potential risks
                 associated with such use. To accomplish this, we selected a sample of 10 hospitals nationwide.
                 For each hospital, we interviewed hospital personnel and reviewed hospital policies and practices
                                     related to the use and protection of SSNs. While SSA cannot prohibit
                                     hospitals from using SSNs as patient identifiers, we believe SSA can be
                                     instrumental in promoting SSN integrity by encouraging hospitals to limit
                                     its collection and use, and by working to protect against inappropriate
                                     disclosure and potential identity theft.
                                      We recommended that SSA: (1) educate hospitals about the potential risks
                                      associated with using SSNs as patient identifiers; (2) encourage hospitals
                                      to limit their collection and use of SSNs; (3) encourage the Centers for
                                      Medicare and Medicaid Services to remove SSNs from identification cards
                 and develop an alternate identifier; and (4) promote the best practices of hospitals that are taking
                 steps to limit their use of SSNs. SSA agreed with our recommendations.

                 SSA Agency Operations: Assessment of the Adequacy of SSA’s Controls Over
                 the Use of Signature Proxies on Applications for Benefits (Limited Distribution
                 Report)
                 SSA’s claim-taking process is evolving into a fully electronic environment and has eliminated
                 the need for retaining paper applications. Accordingly, SSA implemented alternatives to the
                 pen-and-ink or “wet” signatures required for Title II and XVI benefit applications processed
                 on or after June 21, 2004.
                 We assessed the adequacy of SSA’s controls over the risks of using signature proxies. We
                 recognize SSA’s efforts to improve claims processing efficiencies. While additional claims
                 processing controls were implemented, such as modifications made to annotate the Agency’s
                 claims systems for signature proxies, and the retention of a record of the application in the Online
                 Retrieval System, we believe the Agency should take additional steps to help mitigate risks. We



10   •  Impact
October 1, 2005 Thru March 31, 2006	                               SSA Office of the Inspector General



made seven recommendations to the Agency. The Agency agreed with six recommendations
and considered the seventh recommendation, but chose not to implement it.

Wage Reporting: Suspended and Nonwork Wages in SSA’s Payroll
Wages reported to SSA on Forms W-2 containing names and/or SSNs that do not match
SSA’s records cannot be posted to an individual’s earnings record in SSA’s Master Earnings
File. Instead, these wages are placed in SSA’s Earnings Suspense File (ESF)—a repository
for unmatched wages. Wages reported with non-work SSNs are recorded on the Non-work
Alien (NWALIEN) file. SSA issues non-work SSNs to individuals who lack Department of
Homeland Security (DHS) work authorization, but have valid non-work reasons for obtaining
an SSN. Section 414 of the Illegal Immigration Reform and Immigration Responsibility Act of
1996 requires SSA to report to DHS information for individuals working under non-work
SSNs. This file is sent annually to DHS.
The objective of this audit was to determine whether any SSA employees were working
under non-work SSNs and/or names/SSNs that do not match with SSA’s records. Of the
approximately 62,000 employees who worked at SSA during each Tax Year from 1999 through
2002, we found that 94 employees had wages posted to SSA’s NWALIEN file and/or ESF.
Specifically, 33 employees with about $2.6 million in wages had worked during the 4-year
period with non-work SSNs that were assigned in Tax Years 1974 to 1991. In addition, we
identified 61 employees, representing about $184,000 in wages, whose wages were placed in
the ESF because (1) the employees appeared to be deceased in SSA’s records, (2) the employees
disclaimed the wages, or (3) the reported names and/or SSNs did not match SSA’s records.
Although only a relatively small percentage of SSA employees had wages posted to the
NWALIEN file and ESF, SSA should be a model for the employer community by ensuring
that it knows the identity and work status of its employees, since they may have access to the
Agency’s sensitive information and facilities. Therefore, we recommended that SSA: (1) verify
the names and SSNs of its employees; and (2) correct its records for the cases referred during
the audit. SSA agreed with our recommendations.

SSA Agency Operations: Audits of SSA’s Performance Data
We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate SSA’s performance
indicators established to comply with the Government Performance and Results Act. For each
performance indicator, PwC’s objectives were to:
• assess the effectiveness of internal controls and test critical controls over the data generation,
  calculation, and reporting processes for the specific performance indicator;
• assess the overall reliability of the performance indicator’s computer-processed data;
• test the accuracy of results presented and disclosed in the Fiscal Year (FY) 2004 Performance
  and Accountability Report; and
• assess whether the performance indicator provided a meaningful measurement of the program
  it measured and the achievement of its stated objective.



                                                                                                         Impact  •  11
                 Semiannual Report to Congress	                                October 1, 2005 Thru March 31, 2006




                 During the first half of FY 2006, we released the following six reports:
                 • Performance Indicator Audit: Continuing Eligibility
                 • Performance Indicator Audit: Overall Service Rating
                 • Performance Indicator Audit: Claims Processing
                 • Performance Indicator Audit: Social Security Numbers and Earnings Processing
                 • Performance Indicator Audit: Hearings and Appeals Process
                 • Performance Indicator Audit: Outstanding Debt
                 These reports included the results of PwC’s reviews of 15 SSA performance measures. PwC
                 noted areas for improvement in internal controls, data reliability, and the meaningfulness of
                 indicators. PwC also found instances where performance indicators were not fully described in
                 a clear, complete, accurate, and reliable manner in SSA’s FY 2004 Performance and Accountability
                 Report. After PwC completed these reviews, SSA provided improved documentation for
                 several of the indicators. In addition, SSA is working to address internal control issues and
                 is reviewing data retention strategies to allow testing for accuracy of reported performance
                 results.

                 SSA Agency Operations: Assessing the Application Controls for SSA’s
                 Integrated Disability Management System (IDMS)
                 This audit encompassed the three phases of the IDMS processing cycle (input, processing,
                 and output) to ensure disability-related transactions are valid, properly authorized, and
                 completely and accurately processed and reported.
                 SSA established IDMS in 2002 as a central repository for disability information for all
                 beneficiaries. Its purpose is to enhance management of post-entitlement disability processing.
                 This includes the medical continuing disability review (CDR) process and meeting the
                 requirements set forth in the Ticket to Work legislation. IDMS provides online access to all
                 disability-related information for a beneficiary’s work and earnings, Ticket to Work status,
                 and data regarding pending and processed CDRs and expedited reinstatement actions.
                 IDMS also provides online access and integrates the following disability-related databases
                 and systems: Disability Control File, Ticket Payment File, Earnings File, and the Employment
                 Network Payment system. SSA controls online access to IDMS through the use of specialized
                 software.
                 We reviewed the significant input, processing, and output controls for IDMS. While we
                 found many processing and output controls were operating effectively, we identified areas
                 where input controls should be improved. We tested two areas of input controls: input edits
                 and system access. Our review determined that input edits were effective, but system access
                 could be improved. We found the following issues with access controls: (1) excessive access
                 was granted to IDMS data via transaction identifications; (2) excessive access was granted
                 to production datasets; and (3) the process for bypassing edits lacks adequate controls.




12   •  Impact
 October 1, 2005 Thru March 31, 2006	                             SSA Office of the Inspector General




We recommended that SSA: (1) remove inappropriate transaction identifications from
those profiles identified as having excessive access; (2) enforce the “policy of least privilege;”
 (3) encourage component security officers to attend IDMS Security Kickoff meetings; (4) ensure
that the labeling of IDMS transaction IDs in the Top Secret Resource List identifies the correct
type of access; (5) continue to ensure that programmer access to production datasets is properly
controlled; and (6) modify IDMS software to allow for ticket corrections so that edits no longer
need to be bypassed. SSA agreed with our recommendations.

Working Environment Audit: SSA’s Nationwide Asbestos Program
On November 18, 2004, we received an anonymous letter containing allegations that SSA
had not addressed issues raised in our November 1999 report, Selected Procedures Used in the
Social Security Administration’s Asbestos Management Program for its Main Complex. We received
additional anonymous allegations on January 25, 2005. The objective of our review was to
determine the validity of the allegations.
While SSA is not statutorily required to have an asbestos management program, it voluntarily
adopted some of the provisions contained in the Asbestos Hazard Emergency Response Act of
1986 to demonstrate its commitment to safeguard the health and well-being of its employees
and the public. We found that while the Agency’s actions were noteworthy, opportunities exist
to improve the Program.
We recommended that SSA: (1) modify its existing Program protocols to identify when to
conduct required initial inspections and re-inspections of buildings; (2) develop policy to specify
when operation and maintenance plans should be reviewed and when monitoring of work sites
in the proximity of asbestos is required; and (3) revise the Inter-agency Agreement with the
Public Health Service-Federal Occupational Health so that the agreement is consistent with
Agency policies. SSA agreed with our recommendations.




Investigative Impact Initiatives
OI examines allegations of fraud, waste, and abuse in SSA programs and operations. This
includes benefit fraud, SSN misuse, violations by SSA employees, and fraud related to grants
and contracts. Our investigations often result in criminal or civil prosecutions and CMP’s
against offenders. These investigative efforts impact SSA program integrity by deterring those
contemplating fraud against SSA in the future. Our work in the areas of employee misconduct,
program fraud, enumeration fraud, and SSN misuse ensures the reliability of SSA programs
and their future operations.




                                                                                                        Impact  •  13
                 Semiannual Report to Congress	                                       October 1, 2005 Thru March 31, 2006




                                                       Investigative Results
                                                         10/01/05 – 3/31/06

                               Allegations Received                                             46,943

                               Cases Opened                                                      5,301

                               Cases Closed                                                      5,478

                               Arrests/Indictments                                               2,816

                               Total Judicial Actions                                            1,572

                                 Criminal Convictions                                            1,109

                                 Civil/CMPs                                                         112

                                 Illegal Alien Arrests                                              341




                                Cases Opened by Program Category (10/01/2005-3/31/2006
                                                            2%             2%
                                                                                              15%


                         37%



                                                                                                                     30%




                                                  3%                            11%


                                Social Security Number       Title II-Disability             Title II-Retirement
                                Title XVI-Aged               Title XVI-Disability            Employee Related
                                Other




14   •  Impact
October 1, 2005 Thru March 31, 2006	                                SSA Office of the Inspector General




                Cases Closed by Program Category (10/01/2005 - 3/31/2006)

                                   3%             2%                    15%




        39%

                                                                                              27%




                                 3%
                                                                  11%

                Social Security Number     Title II-Disability          Title II-Retirement
                Title XVI-Aged             Title XVI-Disability         Employee Related
                Other




  Allegations Received by Source                        Allegations Received by Category

              10/01/05 – 3/31/06                                   10/01/05 – 3/31/06

Law Enforcement                          16,316        Disability Insurance                   19,055

Private Citizens                          9,288        SSI Disability                         16,775

Anonymous                                 8,624        SSN                                     4,376

SSA Employees                             8,011        Old-Age, Survivors Insurance            3,249

Other                                     3,176        Other                                   2,567

Beneficiaries                              999         Employee                                  477

Public Agencies                            529         SSI Aged                                  444

TOTAL                                    46,943        TOTAL                                  46,943




                                                                                                          Impact  •  15
                 Semiannual Report to Congress	                              October 1, 2005 Thru March 31, 2006




                 The following case summaries highlight major investigations we conducted during the reporting
                 period which enhanced SSA program integrity and the reliability of SSA’s operations.

                 CDI Investigations: Man Claiming Spinal Cord Injury and Dizziness Performs
                 Roofing Work
                 The Denver CDI Unit investigated a 61-year-old man who applied for Title II disability
                 benefits alleging severe pain from a spinal cord injury. The Colorado DDS referred this case
                 because the record showed the man had filed two prior claims, alleging magnified symptoms
                 with each succeeding claim, both of which were denied. Although he reported that he was
                 disabled due to a spinal injury, dizzy spells, and loss of feeling in hands and arms, the SSA
                 claims representative did not note any evidence of these allegations.
                 The CDI Unit conducted surveillance of the man several times at his residence. The man was
                 observed re-roofing a shed in his back yard. He was able to carry a six foot ladder from the
                 front of the residence to the backyard. He climbed to the roof of the shed and removed old
                 tarpaper and carried it to a dumpster. He was observed carrying large metal and fiberglass
                 roofing panels, and using a circular saw. On another occasion, the man was observed in his
                 backyard cutting down a tree with a large chain saw. The DDS denied the man’s claim.

                 CDI Investigations: Woman Receiving Disability Benefits for Mental Retardation
                 Shown Working and Driving
                 The New York CDI Unit investigated a 48-year-old woman receiving Title II disability benefits
                 based on mental retardation, hepatitis, anxiety, depression, and back and leg pain. The CDI
                 Unit received an anonymous report alleging that the woman was working under an alias 6 days
                 a week in a pet grooming shop. CDI investigators observed the woman working as a groomer,
                 receptionist, and cashier at the pet grooming shop. The woman was also observed traveling
                 and driving alone. When the woman later went to an SSA office, she was wearing an arm brace
                 and trembling, and reported that she was unable to travel alone and suffered from numerous
                 physical limitations. The woman was observed removing her arm brace after the interview.
                 When CDI investigators interviewed the woman at work, she tried to deny her identity and
                 work activity. The woman’s disability benefits were ceased.

                 CDI Investigations: SSI Recipient Convicted of Concealing Self-Employment
                 Earnings From SSA
                 The Nashville CDI Unit investigated a 33-year-old woman based on information received from
                 the Cookeville, Tennessee SSA Office that an SSI recipient was working. During a CDR in
                 2003, the woman reported that she had worked cleaning houses from 2000 through 2002. She
                 advised that she had to stop working in December 2002 because she developed osteoporosis,
                 and had a collapsed vertebra. A review of SSA records revealed that since receiving SSI, the
                 woman had substantial self-employment earnings from 2000 to 2002, even though she had
                 undergone a CDR in 2000 and claimed at that time that she “did not feel able to return to
                 work.” She was subsequently convicted and sentenced to 4 years’ probation and ordered to
                 pay restitution to SSA of $13,891.



16   •  Impact
 October 1, 2005 Thru March 31, 2006	                            SSA Office of the Inspector General




SSN Misuse: Organization Buys and Re-Sells Genuine Birth Certificates and
Social Security Cards
Our Harlingen, Texas Office worked a joint investigation with DHS’s Bureau of Immigration
and Customs Enforcement (ICE), and uncovered a large-scale conspiracy in which individuals
were recruited to sell their genuine Social Security cards and birth certificates. An organization
would purchase the documents and forward them to a distribution apparatus for sale to
illegal aliens. It is estimated that the organization distributed several thousand identification
documents. OI and ICE, which had been simultaneously investigating different cells of the
same organization, joined forces to arrest two ringleaders of this operation. One man, a resident
alien from Mexico, pled guilty to fraud, misuse of visas and other documents, and identity
theft. He was sentenced in January 2006 to 57 months’ imprisonment and 3 years’ supervised
release. The other subject, also a resident alien from Mexico, who is the alleged leader of the
document trafficking conspiracy, was indicted in January 2006 and charged with identity theft
and identification document fraud.

SSN Misuse: Man Uses False Persona to Defraud Financial Institutions of Almost
$3.5 Million
We conducted an SSN misuse investigation of a man who defrauded numerous financial
institutions by pretending to be a wealthy technology consultant seeking business loans ranging
from $250,000 – $1.5 million. In some cases, he used proceeds of subsequent loans to pay off
the outstanding balances of previous loans. Acting on a tip from a bank investigator, agents
from our Seattle Office discovered that a recent name change, allegedly due to identity theft,
was a scheme to obtain a new SSN in order to create a new credit history. Our investigation
further determined that the man had a history of fraud dating back several years that followed
a pattern of increasingly larger schemes. The man pled guilty to 10 counts of bank fraud and
1 count of wire fraud, and was sentenced in November 2005 to 84 months in prison and 5 years’
supervised release. He was ordered to pay $3,476,326 in restitution to eight banks, brokerage
and insurance companies, and to a private party.

Employee Fraud: Employee Transfers $308,617 in Government Funds to Personal
Bank Account
This case was referred for investigation by the SSA Center for Security and Integrity (CSI)
in Atlanta. OI’s investigation, with the assistance of CSI in Birmingham, Alabama revealed
that from April 1998 – May 2003, a former SSA case processing technician had misused
SSA systems to electronically transfer $308,617 in SSA funds to her personal bank account.
The employee, who had worked for SSA since 1982, was terminated in August 2004. In
January 2006, our Birmingham Office reported that the employee was sentenced for theft of
Government funds, received 6 months’ incarceration and 3 years’ probation, and was ordered
to pay full restitution to SSA.




                                                                                                       Impact  •  17
                 Semiannual Report to Congress	                                October 1, 2005 Thru March 31, 2006




                 Employee Fraud: Federal Agencies’ Employees Conspire to Steal $247,283 in
                 Government Funds
                 Acting on a referral from the SSA CSI, our Baltimore Office investigated an SSA employee and
                 an employee from the National Aeronautics and Space Administration (NASA) for contract
                 fraud and theft of funds. The investigation revealed that the SSA employee, a benefit authorizer,
                 fraudulently misdirected SSA attorney fee payments of $52,534 to the NASA employee. In
                 turn, the NASA employee fraudulently processed $194,749 of government purchase orders
                 and invoices payable to a fraudulent contracting organization established by the SSA employee
                 that provided no goods or services to NASA. They also conspired to bill NASA for training
                 seminars and training handbook items that were never offered. The SSA employee pled guilty
                 to mail and wire fraud, and was sentenced in December 2005 to 18  months’ incarceration,
                 12 months of electronic monitoring, and 3 years’ supervised release, and ordered to pay full
                 restitution to both Agencies. The NASA employee was sentenced in April 2006 to 18 months’
                 incarceration and 12 months of home detention on electronic monitoring, followed by 3 years
                 of probation. She was also ordered to pay full restitution to SSA and NASA.

                 Employee Fraud: Misuse of Government Property — SSA Employee Prosecuted
                 for Distributing Child Pornography From Work Computer
                 The Federal Bureau of Investigation’s Innocent Images Task Force notified OIG that an
                 Internet Protocol address belonging to SSA was captured uploading child pornographic
                 images. Our Baltimore Office found that the address belonged to an SSA employee. A search
                 warrant was executed on the man’s home, and his Government-issued computer was seized.
                 The investigation revealed that the employee was downloading, sharing and distributing child
                 pornography images from his home computer as well as his Government computer. The
                 man pled guilty to distribution of child pornography and was sentenced in February 2006
                 to 27 months of incarceration followed by 5 years of supervised release. He was also ordered
                 to comply with the sex offender registry laws within the State of Maryland and prohibited
                 from access to a computer or the internet as well as from unsupervised contact with minors,
                 without prior consent from probation/parole.

                 Disability Detection Project: Convicted Sex Offender Received Disability
                 Benefits for 15 Years While Working Under Second SSN
                 The Disability Detection Project represents an OI effort to examine 1,532 disability cases
                 that were identified as part of a recent OA audit, based upon a request by Senator Charles
                 Grassley, Chairman of the Senate Finance Committee. The objective was to produce an
                 improper payment rate for SSA’s disability programs and provide an analysis of the improper
                 payment prevalence in four diagnosis groups.
                 One investigation related to this national project revealed a Boston man who collected
                 $30,059  in Title II disability benefits from 1989 until 2004, while working under a fraudulently
                 obtained SSN. The investigation uncovered not only the disability program fraud, but also
                 that the man, who had a prior conviction for sex with a minor, had filed for permanent
                 guardianship of a minor child by using the fraudulent SSN that was not associated with his
                 criminal history. The man was arrested and subsequently pled guilty to theft of public money.


18   •  Impact
 October 1, 2005 Thru March 31, 2006	                            SSA Office of the Inspector General



He was sentenced in January 2006 to 3 years’ probation, and ordered to pay full restitution to
SSA. Special conditions were also placed on him at his sentencing, including participation in
a sex offender program, and prohibition from contact with anyone under age 18 or engaging
in an occupation, profession, or business that would require direct or indirect supervision of
a child under the age of 18.

Fugitive Felon Program: Los Angeles Agents Arrest SSI Recipient for Murder
The Act prohibits payment of Social Security benefits to fugitive felons. In February 2006,
agents from our Los Angeles office, in conjunction with the United States Marshals Fugitive
Task Force, investigated and arrested a 42-year-old SSI recipient wanted for the murder of his
girlfriend in 2004. With assistance from employees of the Watts Social Security Office in Los
Angeles, California, agents apprehended this violent fugitive without incident.

Fugitive Felon Program: Fugitive Task Force Arrests SSA Beneficiary for Assault
and Battery on a Police Officer
In November 2005, agents from our Batavia Office and members of the Central New York
Fugitive Task Force arrested a 50-year-old Title II disability beneficiary based on a warrant
out of Virginia charging him with assault and battery on a police officer, felony eluding, and
sale and distribution of marijuana. The man was extradited to Virginia in December 2005
and pled guilty to felony eluding and sale and distribution of marijuana. He was sentenced
in March 2006 to concurrent sentences of 3 years’ incarceration and 2 years’ probation for the
felony eluding charge, and 5 years’ incarceration for the drug charge.

Legal Impact Initiatives
OCCIG assures SSA program integrity from a different perspective through its
administration of the CMP program, which enables OIG to impose penalties
against individuals or entities violating Section 1140 of the Act. This Section
prohibits the use of SSA’s program words, letters, symbols, or emblems in
advertisements or other communications in a manner that falsely implies SSA’s
approval, endorsement, or authorization. An individual or entity that violates
this provision is subject to a maximum penalty of $5,000 for each misleading
communication. Our nationwide enforcement efforts serve as a meaningful
deterrent in this area and continue to positively impact SSA’s mission.

Misleading Advertising: Company Agrees to Cease Using False Terminology
Recently, OIG received several complaints regarding a program called “Upper Social Security.”
After investigation, it was learned that Agora Inc., the parent company of Stansberry & Associates
Investment Research, LLC, was mailing letters soliciting subscriptions to the newsletter, True
Wealth, and advertising the program “Upper Social Security.” Information pertaining to “Upper
Social Security” was included on their website. On both the solicitation and the website, Agora
Inc. touted “Upper Social Security” as the government loophole of a lifetime. The solicitation
and website went on to claim that “a rarely publicized government-sponsored program called
‘Upper Social Security’ can pay you 10-times more than ‘ordinary’ Social Security.”


                                                                                                       Impact  •  19
                 Semiannual Report to Congress	                                October 1, 2005 Thru March 31, 2006




                 OIG sent all parties a cease and desist letter on March 21, 2006, informing them that they
                 were violating Section 1140 of the Social Security Act by conveying a false sense of affiliation
                 with SSA. The letter required that the company provide proof of compliance within 14 days
                 of service. On March 28, 2006, counsel for Agora Inc. sent a letter unequivocally assuring the
                 OIG that the parties would immediately cease and desist from all use of the words “Upper
                 Social Security.” The website has been changed and is now in compliance with Section 1140.
                 The OIG will continue to monitor the website and solicitations for continued compliance.
                 The following table presents our Section 1140 accomplishments for this reporting period.




                                                  Misleading Advertising Under
                                                      Section 1140 Results

                                                                    10/01/05–3/31/06

                                    Complaints Received                        43


                                    New Cases Opened                           8


                                    Cases Closed                               7

                                      No Violation Found                       2

                                      Voluntary Compliance                     5

                                      Settlement Agreement
                                                                               0
                                     (# of cases/amounts)
                                      Penalty/Court Action
                                                                               0
                                     (# of cases/amounts)
                                    Hearings Requested                         0




20   •  Impact
October 1, 2005 Thru March 31, 2006	                            SSA Office of the Inspector General




Value
All OIG initiatives strive to provide value to SSA, the Congress, other key decision-makers, and
the public by delivering timely and reliable audit, investigative, and legal products and services.
To achieve the intended value, these products and services must effectively meet the needs of
all whom we serve while at the same time maximizing our available resources. To do this, we
integrate best-practice strategies and the newest technologies in order to increase our productivity
and maximize our return on investment to the public. Taken together, our audits, investigations,
and legal efforts generated a positive return.

Value Attained Through Audits
The focal point of many of our audits is the identification of SSA program and operational areas
where funds could be put to better use. In addition, we have often isolated situations where we
have questioned approaches and their costs and have recommended alternatives to yield program
and operations savings.
During this reporting period, our auditors issued 44 reports with recommendations identifying
over $96 million in questioned costs and over $1.4 million in Federal funds that could be put to
better use. Several of our more notable audits are summarized below.

Benefit Payment Audit: SSA’s Controls over the Write-off of Title XVI
Overpayments
The SSI program provides income to financially needy individuals who are aged, blind or
disabled. SSA relies on applicants to self-disclose their income, and failure to fully disclose this
information can result in overpayments. Generally, SSA writes off uncollectible overpayments
when: (1)  the debt is discharged in a Bankruptcy Court decision; (2) an ALJ declares the
overpayment uncollectible; (3) the overpaid beneficiary is dead and all proper efforts to collect
the overpayment have proved fruitless; or (4) an overpayment was erroneously computed by
SSA’s system.
We reviewed whether decisions by SSA to write off SSI overpayments were in accordance with
its policies and procedures. We determined that SSA did not always document a justification
for the write-off or the required management approval. While we recognize that some of the
write-off decisions may have been appropriate, we could not determine whether the decisions
were reasonable. For 160 of the 250 randomly selected overpayment write-offs (64 percent), the
justification for the write-off, or the management approval, was not documented. Additionally,
of the six highest dollar overpayment write-off decisions, three totaling $302,318 did not fully
comply with SSA’s policies and procedures.
We recommended that SSA: (1) issue a reminder to personnel to fully develop and document
overpayment write-off decisions and implement a mechanism to monitor their compliance;
(2) issue a reminder and further guidance to personnel on the proper disposition of overpayments
resulting from Goldberg-Kelly type payments; and (3) ensure all uncollected overpayment
decisions exceeding established thresholds are reviewed and approved by appropriate SSA
management officials.

                                                                                                      Value  •  21
              Semiannual Report to Congress	                                  October 1, 2005 Thru March 31, 2006




              Generally, SSA agreed with our recommendations, but pointed out that the POMS no longer
              required that a rationale for a write-off be documented or retained in the folder.
              Nevertheless, the Agency stated that: (1) its policy and procedures will be revised to include
              specific steps for documenting the justification for write-off decisions, and (2) a systems
              enhancement is planned that will enable SSA to better document the overpayment disposition
              process.

              Benefit Payment Audit: SSA’s Controls over the OASDI Waiver Approval Process
              The OASDI program makes payments to qualified workers and their dependents as well as
              to survivors of insured workers. When a benefit overpayment occurs, Agency policies dictate
              various actions that should be taken to collect the amount overpaid. Beneficiaries can seek relief
              from repayment by requesting that SSA waive the debt. SSA regulations and policy allow field
              office personnel to waive recovery of an overpayment if the person is without fault and recovery
              would “defeat the purpose of Title II of the Social Security Act or be against equity and good
              conscience.”
              Our objectives in this audit were to determine whether: (1) SSA’s waiver approval process for
              administrative waivers of $500 or less safeguarded the integrity of the OASDI program, and
              (2) waiver decisions exceeding $500 were accomplished in accordance with Title II directives.
              We found SSA had adequate policies and procedures to safeguard the integrity of the waiver
              approval process for administrative waivers of $500 or less, and generally complied with them.
              However, this was not the case for overpayments exceeding $500. Some beneficiaries had
              demonstrated the ability to repay portions of the waived debt, and the Agency’s approval of
              these waivers may not have been appropriate. Also, file reviews showed that some approved
              waivers did not receive appropriate review, and/or that there was inadequate file documentation
              to support the waiver.
              We recommended that, for waivers exceeding $500, SSA: (1) alert employees to follow policies
              and procedures; (2) ensure that required secondary review and sign-off occurs for waivers of
              overpayments greater than $2,000; (3) remind employees to properly document all waiver
              approval decisions; and (4) determine whether employee training is needed, and, if so, provide
              training necessary to ensure compliance with Agency policies and procedures. SSA generally
              agreed with our recommendations.

              Benefit Payment Audit: SSA’s Decisions to Terminate Collection Efforts for
              OASDI Overpayments
              One of SSA’s strategic goals is improving debt collection. SSA has established policies and
              procedures explaining how to recover debt and when collection efforts may be terminated. This
              audit’s objective was to determine whether SSA’s decisions to terminate collection efforts for
              OASDI overpayments were in accordance with its policies and procedures.
              SSA may terminate collection efforts after all appropriate collection tools have been used and
              the debt is considered uncollectible. Although active collection efforts cease, the overpayments



22 •  Value
 October 1, 2005 Thru March 31, 2006	                           SSA Office of the Inspector General



are maintained as inactive debts that may be recovered in the future. During FY 2003, there were
61,564  OASDI overpayment terminations recorded representing approximately $285 million.
Our review indicated that overall, SSA terminated collection efforts for overpayments in accordance
with its policies and procedures, and only 11.6 percent of the debt termination records we reviewed
had compliance problems. We estimate that in FY 2003, about
7,100 decisions were made in which termination of collection efforts
were not compliant. Specifically, SSA terminated collection efforts        Our OIG audit reports are
when contingently liable beneficiaries were collecting benefits. In available online on our website
addition, we could not find documentation that SSA determined
whether an estate existed as a possible source for debt recovery when    at www.socialsecurity.gov/oig
the debtor had died. We estimate these decisions represent about
$29.6 million in OASDI debt.
We recommended that SSA: (1) ensure compliance with policies and procedures regarding
contingently liable beneficiaries; and (2) document contacts before terminating collection efforts.
The Agency agreed with our recommendations.

Benefit Payment Audit: Administrative Costs Claimed by Various DDSs
The DDS for each State, the District of Columbia, and Puerto Rico determines if applicants
meet the medical requirements for disability under Title II Disability Insurance and Title XVI
Supplemental Security Income in accordance with Federal disability regulations. Each DDS is
authorized to purchase consultative examinations and existing medical evidence from the claimants’
treating sources. SSA reimburses the DDSs for 100 percent of allowable costs up to its approved
funding authorization.
During this semiannual reporting period, we issued eight DDS administrative cost audit reports.
The objectives of our audits were to evaluate the internal controls over the accounting and reporting
of administrative costs, determine whether costs claimed were allowable and funds were properly
drawn, and assess limited areas of the general security controls environment.
In total we reported $6,329,193 in questioned costs, and $1,406,180 in funds put to better use.
Most of our recommendations relate to the DDS’ need to comply with Federal regulations and SSA’s
policies and procedures. The individual audit reports and their financial impacts are listed below.

        DDS                 Common Identification        Questioned Costs          Funds Put to
                                  Number                                            Better Use
Maine                          A-01-05-15026                               $0                         $0
North Carolina                  A-04-05-15040                    $4,116,197               $689,211
Wisconsin                       A-05-05-15013                            $0                      $0
Louisiana                       A-06-05-15032                     $120,222                       $0
Arkansas                        A-06-05-15077                        $2,196               $211,122
Texas                           A-06-06-16008                     $778,111                  $40,157
Oklahoma                        A-07-05-15102                        $1,095               $207,940
District of Columbia            A-15-05-30018                    $1,311,372               $257,750
Totals                                                           $6,329,193              $1,406,180
                                                                                                      Value  •  23
              Semiannual Report to Congress	                                 October 1, 2005 Thru March 31, 2006




              Value Attained Through Investigations
              During this reporting period, the efforts of our investigators yielded significant results arising
              from the successful prosecution of cases that we developed. During this reporting period,
              our investigators achieved over $139 million in investigative accomplishments, with over $29
              million in SSA recoveries, restitution, fines, settlements, and judgments and over $109 million
              in projected savings from investigations resulting in the suspension or termination of benefits.
              The following table represents the efforts of OI personnel nationwide to recover SSA funds
              paid in fraudulent benefits or through other illegal actions.




                                                 SSA Funds Reported

                                                               10/01/05 – 3/31/06

                                   Recoveries                              $18,191,854

                                   Fines                                      $792,358
                                   Settlements/
                                                                            $1,038,156
                                   Judgments
                                   Restitution                              $9,504,997

                                   Estimated Savings                     $109,845,163

                                   Total                                 $139,372,528




24 •  Value
October 1, 2005 Thru March 31, 2006	                                      SSA Office of the Inspector General




CDI Program Investigative Results
The following table highlights the successes of the CDI program for this reporting period.

                                   CDI Program Results
                              October 1, 2005 – March 31, 2006
                          Allegations Confirmed
 State                                                         SSA Savings1          Non-SSA Savings2
                           Received Fraud Cases
 Arizona                           45        28                     $1,741,496                   $502,095
 California    3
                                    272              119            $6,790,840                 $5,630,274
 Colorado                             79               56           $3,618,180                 $2,015,377
 Florida                              60               53           $3,368,448                 $2,587,604
 Georgia                              98               64           $3,875,502                 $1,083,762
 Illinois                             54               37           $2,191,289                   $926,605
 Louisiana                            33               25           $1,441,336                   $640,898
 Massachusetts                        51               24           $1,482,722                   $624,220
 Missouri                             91               43           $2,919,860                 $1,049,770
 New Jersey                           68               60           $3,830,315                 $3,766,795
 New York                           111                68           $4,292,686                 $4,594,710
 Ohio                               213              139            $8,814,352                 $4,069,360
 Oregon                             159                99           $6,384,320                 $4,114,085
 Tennessee                            48               27           $1,726,829                   $931,654
 Texas    4
                                      94               82           $4,938,013                 $2,477,158
 Virginia                             65               49           $2,217,058                 $1,798,950
 Washington                         145              103           $6,082,850                $5,184,495
 Total                            1,686            1,076          $65,716,096               $41,997,812
    1
     SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result
    of CDI investigations. When a CDI Investigation supports the cessation of an in-pay case, SSA program
    savings are calculated by multiplying the actual monthly benefit times 60 months.
    2
     Non-SSA Savings are also projected over 60 months whenever another governmental program withholds
    benefits as a result of a CDI investigation, using estimated or actual benefit amounts documented by the
    responsible agency.
    3
        California has two units, one in Los Angeles and the other in Oakland.
    4
        Texas has two units, one in Dallas, and the other in Houston.




                                                                                                                 Value  •  25
              Semiannual Report to Congress	                                 October 1, 2005 Thru March 31, 2006




              The following case summaries are indicative of the nearly 5,500 investigations that we closed
              during this reporting period. The cases highlighted below illustrate the many instances where
              our investigative efforts have afforded a significant return on the investment of our staff and
              resources.

              Double Check Negotiation Project: Woman Claims Non-Receipt of 21 SSI Checks
              to Defraud SSA of $13,315
              This investigation was initiated by our San Diego Office as part of a national Double Check
              Negotiation project, targeting individuals who repeatedly allege non-receipt of SSI benefit checks
              and proceed to negotiate both the original check and a replacement check. Agents arrested a
              woman in June 2005 at the El Cajon, California SSA Office for falsely reporting non-receipt of
              her SSI check on at least 21 occasions from 2000 to 2005. The woman admitted to the agents
              that she lied to SSA on as many as 25 to 30 occasions. In addition, she pled guilty to grand
              theft, and was sentenced in October 2005 to 3 years’ probation with a suspended sentence of
              180 days, pending compliance with probation orders. She must also serve 250 hours of volunteer
              service and up to 20 days of labor at the Public Works Service, pay fines of $469, and pay full
              restitution to SSA.

              Double Check Negotiation Project: Woman Steals $8,030 in SSI Benefits Over
              4 Years
              Our Batavia, New York Office opened this investigation as part of the national Double Check
              Negotiation Project. The investigation disclosed that an SSI recipient lied on 16 separate
              occasions between July 1998 and July 2002, claiming not to have received her SSI check in
              order to have a replacement check issued. The woman admitted to our agents that she cashed
              and spent all the funds received from both the original and the replacement checks, defrauding
              SSA of $8,030. She pled guilty to theft of Government funds, and was sentenced in December
              2005 to 1 month of home confinement, 1 year of probation, and ordered to pay full restitution
              to SSA.

              SSN Fraud: Chicago Woman Receives Retirement Benefits Under One SSN and
              Widow’s Benefits Under Another
              OI and OA collaborated on a national project to identify and investigate instances in which
              individuals were receiving OASDI benefits and/or SSI payments under multiple SSNs. OA
              conducted an analysis of SSNs, benefit records, and address information to identify beneficiaries
              who may have received benefits under different SSNs at the same address. Cases in which fraud
              was suspected were referred to OI field divisions for investigation. For example, OA identified
              an address at which it appeared that two women with similar names, dates of birth, and parents’
              names were receiving different types of Social Security benefits. OI determined that there was
              only one woman, and she had fraudulently received a second SSN in 1965. She worked under
              her initial SSN and began receiving Title II retirement benefits in 1993. When her husband
              died in 1994, she applied for, and obtained, widow’s benefits under the second SSN. The
              woman confessed the scheme to our agents, pled guilty to theft of Government funds, and was



26 •  Value
October 1, 2005 Thru March 31, 2006	                            SSA Office of the Inspector General




sentenced in October 2005 to 5 years’ probation. The woman was ordered to pay restitution
of $116,665 to SSA.

BIC-D Project: Woman Cashes Deceased Grandmother’s Checks for 12 Years
Our Baltimore Office opened an investigation as part of a national project, “BIC-D,” to identify
instances in which widow’s benefits continued to be paid even though Agency records showed
a date of death for the widow. The investigation determined that the subject’s grandmother
had received widows’ benefits. After the grandmother died in 1989, the subject and several of
her friends continued to cash the grandmother’s checks over a span of 12 years. The subject
pled guilty to theft of Government funds and was sentenced in February 2006 to 5 years’
supervised probation, with the first 6 months served as home detention. She was ordered to
pay restitution of $61,160 to SSA.

Disability Program Fraud: Woman Fakes Disability to Steal $244,200 From SSA
and Veteran’s Affairs (VA)
The VA Office in Chicago alerted our Swansea, Illinois office that a woman receiving both VA
and SSA benefits may have faked her disability. SSA records confirmed that the woman began
receiving Title II disability benefits in 1997, alleging that she used a wheelchair full-time due
to Reflex Sympathetic Dystrophy. A joint investigation by OI and the VA OIG found that the
woman had been faking her disabilities for some time. A Federal search warrant executed at
her residence turned up numerous medical aids found stored and unused, for which she had
received compensation from the VA. In addition, videotaped surveillances revealed that the
woman was able to walk without a wheelchair. Evidence collected by OI and the Belleville,
Illinois SSA Office resulted in the DDS’ ceasing the woman’s benefits retroactive to her original
1997 claim. Her 100 percent disability VA benefits were also ceased retroactive to 1994. The
woman pled guilty to making false statements and was sentenced to 37 months’ incarceration.
She was ordered to pay restitution of $100,200 to SSA and $144,000 to VA.

Disability Program Fraud: Disability Beneficiary Conceals Employment With
Sheriff ’s Office and U.S. Marshals Service
In October 2003, the East St. Louis Social Security office learned that a man receiving Title
II disability benefits since 1986 for a bad back had worked for several years as a transport
officer for the Clinton County (Illinois) Sheriff ’s Department. Upon examining the subject’s
claim folder, it was discovered that on two separate occasions during CDRs, he had made false
statements about his work and daily living activities. The investigation also revealed that he
had recently signed a contract to work for the United States Marshals Service. Interviews with
the U.S. Marshals Service revealed that the man did not exhibit any signs of being disabled.
The investigation also found that the beneficiary was engaged in activities he claimed (on SSA
disability review forms) that he could no longer do; e.g., he was an avid hunter and often rode
all-terrain vehicles. In August 2004, he was indicted for mail fraud, concealment of material
information from SSA, and making false statements. He was convicted and sentenced in
January 2006 to 33 months in prison, followed by 3 years’ supervised release, and restitution
to SSA of $81,553.



                                                                                                      Value  •  27
              Semiannual Report to Congress	                                October 1, 2005 Thru March 31, 2006




              Disability Program Fraud: Canadian Arrested for Fraudulently Receiving
              Canadian and SSA Benefits
              This case originated from an inquiry from the Canadian Government regarding a man
              they believed was defrauding both countries’ social insurance programs. The investigation
              determined that the man failed to notify SSA that he was receiving the Canadian benefits.
              The man admitted to defrauding SSA and the Canadian Government in an interview with
              OI agents. He pled guilty in October 2005 and was sentenced in January 2006 to serve 1
              year in custody and pay SSA restitution in the amount of $90,967.

              SSN Fraud: Man Obtains Mortgages and Vehicle Loans Using False SSN and
              Driver’s License
              A joint investigation conducted by the OI Vancouver, Washington office, the Vancouver
              Police Department, the Department of Housing and Urban Development OIG, and the
              Internal Revenue Service determined that a man had fraudulently obtained a Washington
              driver’s license using a false SSN. He subsequently used false SSNs and fictitious employment
              and earnings documents to open a bank account, and to obtain a vehicle loan and two
              mortgage loans in the Portland, Oregon area. He wired funds across State lines in order to
              fund those loans, and then converted the homes he purchased into adult foster care homes
              that were operated without proper licensing. No payments were ever made to the mortgage
              companies. The man’s mother, sister, and wife assisted him in this scheme. Investigations
              into five additional properties fraudulently obtained by the group are continuing. The man
              pled guilty to fraudulent use of an SSN and was sentenced in October 2005 to 18 months in
              prison and 3 years of supervised probation. He was ordered to pay $243,224 in restitution
              to two mortgage companies and a private party.

              Representative Payee Fraud: Organizational Representative Payee Employee
              Steals $109,471 in Benefits to Support Gambling Habit
              In November 2005, an employee of the Scott County (Iowa) Community Services
              Department (SCCSD) was sentenced to 12 months and 1 day in prison after pleading
              guilty to theft of government funds. This sentence was based on a joint investigation by OI’s
              Des Moines Office and the Scott County Sheriff ’s Office. The investigation revealed that
              the employee had diverted funds from a collective account that she managed for SCCSD,
              which serves as an organizational representative payee for several hundred Social Security
              beneficiaries and SSI recipients. The investigation determined that from May 2001 until
              her employment was terminated in November 2002, the employee had diverted $109,471,
              using the funds primarily to support her gambling habit. In addition to the prison term,
              the employee was sentenced to 2 years of supervised probation, and was ordered to pay
              full restitution to SCCSD.




28 •  Value
 October 1, 2005 Thru March 31, 2006	                        SSA Office of the Inspector General




Value Attained Through CMPs
Our efforts to administer that portion of the CMP program which deals with violators of
Section 1129 of the Act also maximize the resources available to us and contribute to the
return on that investment. Section 1129 of the Act allows for the
imposition of a CMP against those who make false statements or
representations in connection with obtaining or retaining benefits
or payments under Titles II, VIII, or XVI of the Act. The Social
Security Protection Act of 2004 (Public Law 108-203) extended
CMP authority to penalize representative payees for wrongful
conversion of payments made under the Social Security programs
and individuals who knowingly withhold a material fact.
After consultation with DOJ, OCCIG is authorized to impose
penalties of up to $5,000 against individuals for each false statement,
representation, conversion or omission. A person may also be subject
to an assessment, in lieu of damages, of up to twice the amount of any overpayment.
The following table and cases highlight the value achieved through our Section 1129 efforts
for this reporting period.




                                   False Statements Under
                                    Section 1129 Results

                                                      10/01/05 – 3/31/06

         Cases Received                                         240


         CMP Cases Initiated                                    103


         CMP Cases Closed                                       182

           CMP Penalties and
                                                             $1,122,683
           Assessments
           Number of Hearings
                                                                 19
           Requested




                                                                                                   Value  •  29
               Semiannual Report to Congress	                               October 1, 2005 Thru March 31, 2006




               CMP: Louisiana Company Fined For Fraudulent Reporting
               The Baton Rouge CDI unit began investigating an allegation that a beneficiary was collecting
               benefits while working for an environmental company. The investigation revealed that the
               president of the company was reporting most of the beneficiary’s earnings on his wife’s record.
               The beneficiary was indicted and is pending prosecution. The United States Attorney declined
               prosecution of the company’s president and the matter was referred to OCCIG for CMP
               consideration. OCCIG negotiated a settlement agreement with the company. A $20,000  CMP
               was paid in full at the time of settlement.

               CMP: Subject Receiving Benefits Under Two Names
               This case came to light through an OIG computer run which revealed two SSA benefit payments
               going to the same address for several years. Investigation revealed that a male applicant had
               made false statements on his application for retirement benefits indicating that his earnings
               record was correct, and that he had not previously filed for SSA benefits. In fact, in 1990 the
               applicant had filed for disability benefits under another name and SSN, under which he also
               had posted earnings. The man agreed to pay a $60,000 CMP.

               CMP: Homeless Shelter Employee Misuses SSI Funds of Mentally Ill Woman
               An OIG investigation uncovered a scam by a homeless shelter employee who convinced a
               mentally ill homeless woman that he should serve as her representative payee for SSI payments.
               He provided numerous false statements to SSA, which included stating that the woman resided
               in his home and that he was her nephew. After receiving the initial check, the employee held
               back $160 a month “in case she needed to buy cigarettes,” and gave the SSI recipient the rest
               of her monthly check. When the representative payee was confronted with the discrepancies,
               he admitted to the false statements. As a result, he was subject to administrative disciplinary
               action by his Agency, as well as an OCCIG-imposed $50,000 CMP.




30 •  People
October 1, 2005 Thru March 31, 2006	                             SSA Office of the Inspector General




People
OIG is committed to a highly skilled and motivated workforce. Our success in recruiting and
retaining only the best individuals is reflected in the work we accomplish. In addition, OIG’s
leadership continues to provide employees with superior training opportunities and career
enhancing developmental assignments. An Organizational Health Committee, comprised of
designated representatives from management and non-management employees from OA, OI
and ORM, periodically assesses employee satisfaction levels and addresses areas of concern.

Budget
For FY 2006, OIG’s annual appropriation is $91.5 million supports a staffing level of 615 Full
Time Equivalents. Approximately 84 percent of our budget will be used for employee salaries
and benefits, and the remaining 16 percent for other objects. The majority of other object
spending includes 10 percent for mandatory requirements (i.e., rent, utilities and services),
leaving approximately 6 percent for discretionary spending (e.g., travel, training, procurement,
etc.)
In accordance with the President’s Management Agenda, OIG’s Strategic Plan integrates budget
and organizational performance. The goals set forth in the Plan are continuously monitored
and reported on a monthly basis.

Human Capital Planning and Management
OIG continuously monitors staffing throughout the organization to ensure that vacant positions
are filled expeditiously. Based on historical trends and human resource data, our integrated
budget and staffing plan forecasts employee separations allowing us to determine when
recruitment should occur. This process has reaped great success in enabling our organization
to remain at near full staffing levels throughout the reporting period. Our aggressive staffing
and recruitment ensures that OIG components have the necessary resources to fulfill their
respective missions.
OIG remains vigilant in its efforts to recruit and retain the best people. Structured interviews
used to assess job candidates are resulting in excellent selections. Our human capital specialists
and recruiters participate in job and career fairs around the country. Some of these events target
underrepresented groups in the labor force allowing us to continue our outreach efforts aimed
at employing a diverse workforce. We continue making progress in minority recruitment. Our
diversity statistics meet or exceed goals in most categories.
Like many Federal departments, SSA is planning to implement a new employee performance
management system that links individual performance to organizational goals. The new
Performance Assessment and Communication System will replace the current “pass/fail”
performance evaluation process with a multi-tiered system. OIG will serve as the component
within SSA to pilot the new system. Significant planning has taken place during this semiannual
reporting period to prepare for implementing the pilot on June 1, 2006. The pilot will cover




                                                                                                   People  •    31
               Semiannual Report to Congress	                                October 1, 2005 Thru March 31, 2006




               approximately 225 headquarters and Philadelphia region employees. Full implementation for
               all OIG employees is expected in FY 2007.
               During this semiannual reporting period, our employees continued to participate in a pilot
               training program sponsored by the PCIE. This program, known as Inspector General
               Electronic Learning (IGEL), uses a robust suite of online interactive courses and reference
               materials available to students anywhere at any time. Recommended courses are prescribed
               for each major job category of OIG employees including auditors, investigators, attorneys,
               support staff and managers. IGEL has proven to be a very successful cost-efficient method of
               delivering needed quality training to our employees.

               Information Technology
               OIG provides and maintains most of its own Information Technology systems. We realize
               the importance of state-of-the-art tools and place a high priority on ensuring that our
               employees have the latest proven technologies to perform their work.

               In support of the President’s goal to expand electronic services, we took a fresh look at our
               Internet web site to assess its structure and usefulness to the public at large. As more citizens
               choose to interact with the Government online, we understand the importance of creating
               and maintaining “easy-to-understand” and “easy-to-use” web-based services. A workgroup
               comprised of auditors, investigative personnel, legal experts and administrative technicians
               reviewed every page and link of our web site. Based on their review, a substantial number of
               modifications were implemented or are in the process of being updated. Information is now
               displayed in a more logical and conversational format. Improved clarity and the elimination
               of redundant data are among the improvements we made. OIG is committed to the ongoing
               review and continuous update of its web site to ensure that the public can get what it needs
               rapidly and on their first visit.
               We continue assessing industry trends to determine what new technologies are best suited for
               our business processes. During this semiannual reporting period, all OIG computer users were
               migrated to Active Directory, a central service that organizes network resources and manages
               users, computers and applications. Our hardware specialists added a high capacity server to
               our email infrastructure and migrated all user mailboxes to Microsoft Exchange 2003. This
               effort resulted in increased mailbox sizes and the ability for users to access their SSA email
               from any internet-connected web browser. Providing this remote email access facilitates many
               activities including telework.
               OIG software specialists and contract personnel continue making enhancements to the National
               Investigative Case Management System. This system provides enhanced case management
               functionality, improved query and reporting capabilities and workflow based on business
               process management rules. Major enhancements completed during this semiannual reporting
               period include the development of automated fact sheets that provide summary points relating
               to investigative case files and a time reporting module that allows users to account for their
               daily activities by project codes.




32 •  People
 October 1, 2005 Thru March 31, 2006	                           SSA Office of the Inspector General




Additionally, last year we implemented new software to plan and document our audits. We have
since worked to improve the technology and processes we use to ensure maximum productivity.
During this semiannual reporting period, we participated in a software conference to share
ideas and best practices with other organizations, including other Government agencies. We
also tested the new version of the audit software and provided feedback to the developer
suggesting further improvements for the application’s usability and functionality. We will begin
implementation of the upgraded audit software in May 2006.

Outreach Efforts
“Working Together” takes many forms, not the least of which is a dedication to sharing
knowledge, forging partnerships, and seeking to attain common goals. The Inspector General
and the employees of the OIG are frequently in the spotlight, at the podium, or in front of a
microphone, working together with a multitude of audiences and colleagues. The following
are but a few examples of our outreach efforts during this reporting period.
Agents from our OI Dallas Office participated in the second annual “Scam Jam” symposium,
held at the Dallas Convention Center. The event was organized by the North Texas Crime
Commission with the cooperation of 28 law enforcement, Government, and community
agencies. The purpose of the symposium was to help the community understand issues
surrounding fraud. The event featured exhibits and educational sessions on how to protect
against fraud.
Our auditors met with officials from the National Organization of Social Security Claimants’
Representatives, the National Association of Disability Representatives, and the National
Association of Disability Examiners to discuss SSA’s implementation of Section 303 of
the Social Security Protection Act of 2004, Nationwide Demonstration Project Providing for
Extension of Fee Withholding Procedures to Non-Attorney Representatives. We briefed
these organizations on the background of the demonstration project, and discussed eligibility
requirements, including those involving examination, education, experience, and insurance.
Agents from our OI Chicago Office conducted a seminar on OIG efforts in the area of identity
theft. The seminar was presented to residents in Chicago’s Wrigleyville neighborhood.
Currently, our auditors are working in partnership with the Department of Labor (DOL),
Office of the Inspector General (DOL-OIG) on two audits related to Federal Employees’
Compensation Act (FECA) payments. We have the lead for one of the audits and DOL-OIG
has the lead for the other. For these audits, the DOL-OIG provided files containing FECA
data for all Federal employees. Once our review is completed, we plan to issue a report to the
PCIE and the Executive Council on Integrity and Efficiency.
The Inspector General’s Chief Counsel made a presentation on SSN misuse and Identity
Theft during a national Association of Government Accountants teleconference.
Along with TIGTA, our audit staff reviewed SSA’s Self-Employment Income ESF. We worked
with TIGTA to identify better methods for locating the owners of earnings in SSA’s ESF.




                                                                                                   People  •    33
               Semiannual Report to Congress	                             October 1, 2005 Thru March 31, 2006




               One of our audit teams worked with the Department of Defense’s (DoD)OIG in their
               audit to review controls over DoD employees’ SSNs. DoD is verifying their employees’
               SSNs to ensure that they match SSA’s records and that DoD employees have appropriate
               work authorization. We also assisted DoD-OIG with another audit, in which they were
               reviewing SSNs of DoD beneficiaries.
               A senior attorney from the Chief Counsel’s office gave a presentation on SSN misuse to the
               National Association of Counties in March, explaining actions that county governments
               can take to prevent misuse.
               The Inspector General appeared at the Association of Government Accountants’ Chicago
               conference in December, and gave a presentation on SSN misuse and identity theft.
               Agents from the OI Seattle Office presented seminars on identity theft to women’s groups
               in Bambridge Island, Washington, as well as in several locations in the Seattle area. They
               also conducted seminars on identity theft with the Indian Gambling Commission at a
               number of locations.




                                       A Special Thank You
                      The diligent work, outstanding efforts, and many contributions
                      of our entire OIG staff make the numerous accomplishments
                      highlighted in this Semiannual Report to Congress possible.
                      We would like to thank them for their dedicated spirit and
                      many successes.




34 •  People
October 1, 2005 Thru March 31, 2006	    SSA Office of the Inspector General




                       Reporting Requirements
                                 and
                            Appendices




                                                                              35
              Semiannual Report to Congress	                                    October 1, 2005 Thru March 31, 2006




             Reporting Requirements
             This report meets the requirements of the Inspector General Act of 1978, as amended, and
             includes information mandated by Congress.



                    Section                               Requirement                                Page(s)

                  Section 4(a)(2)      Review of legislation and regulations                           N/A


                  Section 5(a)(1)      Significant problems, abuses, and deficiencies                  8-30


                  Section 5(a)(2)      Recommendations with respect to significant problems,
                                                                                                       8-30
                                       abuses, and deficiencies

                  Section 5(a)(3)      Recommendations described in previous Semiannual            Appendices F
                                       Reports on which corrective actions are incomplete             &G

                  Section 5(a)(4)      Matters referred to prospective authorities and the
                                                                                                       13-30
                                       prosecutions and convictions that have resulted

                 Section 5(a)(5) &
                                       Summary of instances where information was refused              N/A
                  Section 6(b)(2)


                  Section 5(a)(6)      List of audits                                               Appendix B


                  Section 5(a)(7)      Summary of particularly significant reports                     8-24

                                       Table showing the total number of audit reports and
                  Section 5(a)(8)                                                                   Appendix A
                                       total dollar value of questioned costs

                                       Table showing the total number of audit reports and
                  Section 5(a)(9)                                                                   Appendix A
                                       total dollar value of funds put to better use

                                       Audit recommendations more than 6 months old for
                 Section 5(a)(10)                                                                   Appendix A
                                       which no management decision has been made

                                       Significant management decisions that were revised
                 Section 5(a)(11)                                                                      N/A
                                       during the reporting period

                                       Significant management decisions with which the
                 Section 5(a)(12)                                                                   Appendix D
                                       Inspector General disagrees




36  •  Reporting Requirements
   October 1, 2005 Thru March 31, 2006	                                 SSA Office of the Inspector General




Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection
of questioned and unsupported costs. Questioned costs are those costs that are challenged because of a
violation of law, regulation, etc. Unsupported costs are those costs that are questioned because they are
not justified by adequate documentation. This information is provided in accordance with P.L. 96- 304
(the Supplemental Appropriations and Recession Act of 1980) and the Inspector General Act of 1978, as
amended.


                    Reports with Questioned Costs for the Reporting Period
                               October 1, 2005 through March 31, 2006
                                                          Number Value Questioned Value Unsupported
  A.	For which no management decision had been made
                                                               7            $95,358,944                 $3,402,660
     by the commencement of the reporting period.

  B.	 Which were issued during the reporting period.          11a           $95,992,839                   $149,766

  				              Subtotal (A + B)                          18           $191,351,783                 $3,552,426

  	 Less:

  C.	 For which a management decision was made
                                                              13b          $111,099,217                   $848,212
      during the reporting period.

  	 i.	 Dollar value of disallowed costs.                     10            $86,210,184                   $848,212

  	 ii.	 Dollar value of costs not disallowed.                 3            $24,889,033                        $0

  D.	For which no management decision had been made
                                                               7            $80,252,566                 $2,704,214
     by the end of the reporting period.


­a. 	 See Reports with Questioned Costs in Appendix B of this report.
b. 	 Representative Payee Reports Indicating Excess Conserved Funds for Supplemental Security Income Recipients
     (A-13-03-13065, 3/28/05) and Administrative Costs Claimed by the North Carolina Disability Determination
     Services (A-04-05-15040, 3/13/06) contained dollars that were disallowed and dollars not disallowed.




                                                                                                      Appendices  • 37
                    Semiannual Report to Congress	                                        October 1, 2005 Thru March 31, 2006




    The following chart summarizes SSA’s response to our recommendations that funds be put to better use
    through cost avoidances, budget savings, etc.


                      Reports with Recommendations that Funds Be Put to Better Use
                        Reporting Period October 1, 2005 through March 31, 2006
                                                                                          Number          Dollar Value
      A.	For which no management decision had been made by the
                                                                                              3                 $2,369,323
         commencement of the reporting period.

      B.	 Which were issued during the reporting period.                                     5a                 $1,406,180

      			 Subtotal (A + B)                                                                    8                 $3,775,503

      	 Less:

      C.	 For which a management decision was made during the reporting period.

       i.	Dollar value of recommendations that were agreed to by management.

              (a) Based on proposed management action.                                        7                 $3,565,642

              (b) Based on proposed legislative action.                                       0                          $0

       ii.	      Dollar value of costs not agreed to by management.                           0                          $0

      			 Subtotal (i + ii)                                                                   7                 $3,565,642

      D.	For which no management decision had been made by the end of the
                                                                                              1                   $209,861
         reporting period.


       ­a.	      See Reports with Funds Put to Better Use in Appendix B of this report.




38  •  Appendices
October 1, 2005 Thru March 31, 2006	                                              SSA Office of the Inspector General




Appendix B: Reports Issued
                              Reports with Non-Monetary Findings
                                October 1, 2005 through March 31, 2006
Audit Number                                              Report                                             Issue Date

   A-15-05-15115    Performance Indicator Audit: Continuing Eligibility                                        10/4/2005


   A-15-05-15118    Performance Indicator Audit: Overall Service Rating                                        10/4/2005


   A-15-05-15114    Performance Indicator Audit: Claims Processing                                             10/27/2005


   A-13-05-15031    The Social Security Administration’s Office of Systems’ Training Program                   10/28/2005

                    Inspector General Statement on the Social Security Administration’s Major
   A-02-06-16050                                                                                               11/9/2005
                    Management Challenges

   A-15-05-15130    Oversight of the Fiscal Year 2005 Financial Statement Audit                                11/9/2005


   A-01-05-15026    Administrative Costs Claimed by the Maine Disability Determination Services                11/14/2005


   A-05-05-15013    Administrative Costs Claimed by the Wisconsin Disability Determination Bureau              11/22/2005


   A-09-05-15099    Universities’ Use of Social Security Numbers as Student Identifiers in Region IX           11/30/2005


   A-15-05-15117    Performance Indicator Audit: Social Security Numbers and Earnings Processing               11/30/2005

                    Management Advisory Report: Single Audit of the State of Indiana for the Fiscal Year
   A-77-06-00001                                                                                               12/6/2005
                    Ended June 30, 2004
                    Costs Claimed by the Virginia Commonwealth University Contract Number 600-99-
   A-15-06-16033                                                                                               12/13/2005
                    38679 (Limited Distribution)
                    Assessment of the Adequacy of the Social Security Administration’s Controls Over the
   A-14-05-15078                                                                                               12/21/2005
                    Use of Signature Proxies on Applications for Benefits (Limited Distribution)
                    Management Advisory Report: Single Audit of the State of South Carolina for the
   A-77-06-00002                                                                                               12/21/2005
                    Fiscal Year Ended June 30, 2004
                    Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
   A-77-06-00003                                                                                               12/21/2005
                    Ended March 31, 2004
                    Office of Hearings and Appeals Reversal of Disability Denial Decisions Involving
   A-07-05-15091                                                                                               1/20/2006
                    Investigative Information from Cooperative Disability Investigations Units

   A-13-05-15047    Representative Payees Receiving Benefits for Children in Foster Care                       1/20/2006


   A-02-05-15125    The Social Security Administration’s Ticket to Work - Ticket Assignments                   1/24/2006

                    The Social Security Administration’s Identification of Special Disability Workload
   A-13-05-15028                                                                                               1/24/2006
                    Cases




                                                                                                                Appendices  • 39
               Semiannual Report to Congress	                                                    October 1, 2005 Thru March 31, 2006




                                     Reports with Non-Monetary Findings
                                       October 1, 2005 through March 31, 2006
     Audit Number                                               Report                                              Issue Date

        A-15-05-15113   Performance Indicator Audit: Hearings and Appeals Process                                    1/24/2006


        A-08-06-26011   Physical Security at the Southeastern Program Service Center (Limited Distribution)          1/25/2006


        A-02-05-15116   Performance Indicator Audit: Outstanding Debt                                                1/27/2006


        A-08-06-16056   Hospitals’ Use and Protection of Social Security Numbers                                     1/27/2006

                        Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
        A-77-06-00006                                                                                                2/10/2006
                        Ended June 30, 2004
                        Management Advisory Report: Single Audit of the State of Oklahoma for the Fiscal Year
        A-77-06-00007                                                                                                2/10/2006
                        Ended June 30, 2004
                        Disclosure Statement for MAXIMUS’ Human Services Operations Segment Effective
        A-15-06-26026                                                                                                2/17/2006
                        October 1, 2002
                        Management Advisory Report: Single Audit of the State of Pennsylvania for the Fiscal Year
        A-77-06-00008                                                                                                 3/7/2006
                        Ended June 30, 2004

        A-03-05-15087   Suspended and Nonwork Wages in the Social Security Administration’s Payroll                  3/13/2006


        A-13-05-21521   The Social Security Administration’s Nationwide Asbestos Program                             3/23/2006

                        Assessing the Application Controls for the Social Security Administration’s Integrated
        A-14-05-15064                                                                                                3/23/2006
                        Disability Management System

        A-07-06-26009   The Social Security Administration’s Independence Day Assessment                             3/24/2006

                        Management Advisory Report: Single Audit of the State of New Jersey for the Fiscal Year
        A-77-06-00009                                                                                                3/24/2006
                        Ended June 30, 2004
                        Management Advisory Report: Single Audit of the State of the Michigan Department of
        A-77-06-00010                                                                                                3/27/2006
                        Human Services for the 2-Year Period Ended September 30, 2004




40  •  Appendices
October 1, 2005 Thru March 31, 2006	                                        SSA Office of the Inspector General




                                  Reports with Questioned Costs
                                October 1, 2005 through March 31, 2006
Audit Number Issue Date                                         Report                                       Dollar Amount
                                 Administrative Costs Claimed by the Arkansas Disability Determination
  A-06-05-15077    10/11/2005                                                                                          $2,196
                                 Services
                                 Administrative Costs Claimed by the District of Columbia Disability
  A-15-05-30018     11/8/2005                                                                                       $1,311,372
                                 Determination Division for Fiscal Years 2001 and 2002
                                 Administrative Costs Claimed by the Louisiana Disability
  A-06-05-15032    11/28/2005                                                                                        $120,222
                                 Determination Services
                                 The Social Security Administration’s Controls over the Write-off of Title
  A-04-05-15041     1/20/2006                                                                                      $49,067,615
                                 XVI Overpayments
                                 Administrative Costs Claimed by the Oklahoma Disability
  A-07-05-15102     1/24/2006                                                                                          $1,095
                                 Determination Services
                                 Management Advisory Report: Single Audit of the State of Texas for the
  A-77-06-00004     1/31/2006                                                                                          $4,508
                                 Fiscal Year Ended August 31, 2004
                                 Management Advisory Report: Single Audit of the State of Wisconsin
  A-77-06-00005     1/31/2006                                                                                         $43,664
                                 for the Fiscal Year Ended June 30, 2004
                                 The Social Security Administration’s Controls over the Old-Age,
  A-13-05-15027     2/1/2006                                                                                       $11,146,465
                                 Survivors and Disability Insurance Waiver Approval Process
                                 Administrative Costs Claimed by the North Carolina Disability
  A-04-05-15040     3/13/2006                                                                                       $4,134,902
                                 Determination Services
                                 The Social Security Administration’s Decisions to Terminate Collection
  A-13-05-15029     3/22/2006                                                                                      $29,532,455
                                 Efforts for Old-Age, Survivors and Disability Insurance Overpayments
                                 Administrative Costs Claimed by the Texas Disability Determination
  A-06-06-16008     3/23/2006                                                                                        $778,111
                                 Services

                                                                                         TOTAL:                $96,142,605

                                Reports with Funds Put to Better Use
                                October 1, 2005 through March 31, 2006
Audit Number Issue Date                                         Report                                       Dollar Amount
                                 Administrative Costs Claimed by the Arkansas Disability Determination
  A-06-05-15077    10/11/2005                                                                                        $211,122
                                 Services
                                 Administrative Costs Claimed by the District of Columbia Disability
  A-15-05-30018     11/8/2005                                                                                        $257,750
                                 Determination Division for Fiscal Years 2001 and 2002
                                 Administrative Costs Claimed by the Oklahoma Disability
  A-07-05-15102     1/24/2006                                                                                        $207,940
                                 Determination Services
                                 Administrative Costs Claimed by the North Carolina Disability
  A-04-05-15040     3/13/2006                                                                                        $689,211
                                 Determination Services
                                 Administrative Costs Claimed by the Texas Disability Determination
  A-06-06-16008     3/23/2006                                                                                         $40,157
                                 Services

                                                                                         TOTAL:                 $1,406,180

                                                                                                               Appendices  • 41
              Semiannual Report to Congress	                                 October 1, 2005 Thru March 31, 2006




   Appendix C: Reporting Requirements Under the
   Omnibus Consolidated Appropriations Act for FY 1997
   To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we are
   providing requisite data for FY 2006 from the Offices of Investigations and Audit in this report.
   Office of Investigations
   We are reporting over $29 million in SSA funds as a result of our investigative activities in this reporting
   period. These funds are broken down in the table below.


                         Investigative Activities

                        1st Quarter        2nd Quarter          Total
     Court Ordered
                            $4,505,643          $4,999,354      $9,504,997
      Restitution

       Recoveries           $8,401,105          $9,790,749     $18,191,854


         Fines               $421,128            $371,230         $792,358

      Settlements/
                             $320,618            $717,538       $1,038,156
       Judgments

        TOTAL             $13,648,494          $15,878,871     $29,527,365



   Office of Audit
   SSA management has informed us that it has completed implementing recommendations from 7 audit reports
   during this time period valued at over $92 million.

   Administrative Costs Claimed by the North Carolina Disability Determination
   Services (NC-DDS) (A-04-05-15040, 3/13/06)
   We recommended that SSA instruct the NC-DDS to return the $689,211 that remains unused in its FYs 2001
   through 2003 Automated Standard Application for Payments (ASAP) accounts.

   Administrative Costs Claimed by the Oklahoma Disability Determination Services
   (A-07-05-15102, 1/24/06)
   We recommended that the SSA Regional Commissioner rescind the excess ASAP funding authority of $33,598
   and $174,342 for FYs 2003 and 2004, respectively.




42  •  Appendices
 October 1, 2005 Thru March 31, 2006	                              SSA Office of the Inspector General




Administrative Costs Claimed by the Arkansas Disability Determination Services
(AR-DDS) (A-06-05-15077, 10/11/05)
We recommended that SSA instruct the AR-DDS to deobligate the $20,000 from the FY 2003 SSA-4513.

The Effectiveness of the Social Security Administration’s Controls over Title II
Unnegotiated Checks (A-02-05-15079, 9/19/05)
We recommended that SSA review and take appropriate action to address the 18 cases we identified where
unnegotiated checks continue. The implemented recommendation is valued at over $734,000.

Administrative Costs Claimed by the Pennsylvania Bureau of Disability
Determination (A-15-04-14080, 8/31/05)
We recommended that SSA improve internal controls over the obligation process to ensure only properly supported
obligations are recorded and deobligate the invalid move/expansion unliquidated obligations of $770,775 for
FY 2002 and $1,381,094 for FY 2003.

Social Security Number Cards Issued After Death (A-06-03-13078, 4/20/05)
We recommended that SSA review its procedures for paying survivor’s payments to auxiliaries when evidence
indicates that the numberholder is not deceased. The implemented recommendation is valued at $720,000.

The Social Security Administration’s Clean-Up of Title II Disability Insurance Cases
with a Workers’ Compensation Offset (A-04-03-13042, 10/14/04)
We recommended that SSA evaluate the effectiveness of the procedures implemented to improve the payment
accuracy of the Workers’ Compensation workload and implement new or additional procedures, as necessary.
The implemented recommendation is valued at $87.5 million.




Appendix D: Significant Management Decisions With Which the
Inspector General Disagrees
There are no significant management decisions with which the Inspector General disagrees.




                                                                                                 Appendices  • 43
             Semiannual Report to Congress	                                        October 1, 2005 Thru March 31, 2006




             Appendix E: Collections From Investigations and Audits
             The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
             additional information concerning actual cumulative collections and offsets achieved as a result
             of OIG activities each semiannual period.


             Office of Investigations



                           Total Restitution Reported by DOJ as Collected for SSA

                                  Total Number of
                                                                 Court Ordered
                                Individuals Assigned                                           Total Restitution
                     FY                                            Restitution
                                   Court Ordered                                               Collected by DOJ
                                                                 for This Period
                                     Restitution
                    2004                  700                                 $24,309,652                 $2,307,487

                    2005                  661                                 $22,292,757                 $1,439,253

                    2006                  311                                  $9,504,997                 $249,8701

                    TOTAL                1,672                            $56,107,406                     3,996,610

                Reflects collection for October 1, 2005 – December 31, 2005
                1




                                 Recovery Actions Based on OI Investigations

                                      Total Number of Recovery
                          FY                                                        Amount for Recovery
                                          Actions Initiated

                       2004                        1,861                                    $32,706,653

                       2005                        1,686                                    $30,908,777

                       2006                         990                                     $18,191,854

                      TOTAL                        4,537                                    $81,807,284




44  •  Appendices
 October 1, 2005 Thru March 31, 2006	                                      SSA Office of the Inspector General




Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. This information is prepared in coordination with
SSA’s management officials and is current as of March 31, 2006.


                         SSA’s Responses to OIG’s Recommendations
                   Recovery or Redirection of Questioned and Unsupported Costs

         Reports with                                              Amount            Amount
                        Questioned/             Management
  FY     Questioned                                              Collected or to    Written-Off/          Balance
                      Unsupported Costs         Concurrence
            Costs                                                be Recovered       Adjustments

 2004         19           $1,500,781,845 $1,473,473,313          $107,030,015     $1,390,105,6341       $3,684,480

 2005         24             $374,930,433       $363,916,161      $169,755,310         $10,153,539 $195,021,584

 20062        11              $96,142,605          $2,234,039         $110,636         $15,380,546      $79,873,312

TOTAL         54           $1,971,854,883 $1,839,623,513          $276,895,961     $1,415,639,719 $278,579,376

   1
    This amount includes $1,365,957,300 in adjustments that were contained in the report, Disabled Title II Beneficiaries
   with Earnings Reported on the Master Earnings File (MEF) (A-01-03-13019, 7/12/2004). We recommended that
   SSA review past cases where significant earnings are present on the MEF and no determination has been made
   regarding trial work and/or substantial gainful activity (SGA). SSA agreed, where it is cost beneficial to do so and
   as its resources permit, to review the cases with significant earnings on the MEF where no determination has been
   made regarding trial work/SGA and take action. However, SSA subsequently informed us that it would not review
   the cases.­
   October 1, 2005 to March 31, 2006
   2




Appendix F: Significant Monetary Recommendations From Prior FYs
for Which Corrective Actions Have Not Been Completed
There are no significant monetary recommendations from prior FYs for which corrective actions have
not been completed.




                                                                                                            Appendices  • 45
             Semiannual Report to Congress	                                      October 1, 2005 Thru March 31, 2006




          Appendix G: Significant Non-Monetary
          Recommendations From Prior FYs for Which Corrective
          Actions Have Not Been Completed
          Work Activity for SSNs Assigned for Nonwork Purposes in the State of Utah
          (A-14-01-11048, 3/29/02)
          Recommendation: We recommended that SSA work with the Immigration and Naturalization Service,
          now incorporated into the Department of Homeland Security (DHS), to resolve data compatibility
          problems associated with the nonwork earnings file provided by SSA and involve employees familiar with
          the problem.
          Agency Response: SSA agreed with the recommendation.
          Corrective Action: Under the direction of the Enumeration Response Team, a subgroup is currently
          working on a proposal to expand the SSN electronic audit trail to capture information that could also
          be useful in resolving data compatibility problems between SSA and DHS. At this time, no milestone
          activities have been determined.
          In the interim, SSA has implemented the “SS-5 Assistant” software program. The SS-5 Assistant Release 2
          is a Microsoft Access-based application that has been developed to support processing of SSN applications.
          Working in conjunction with the existing Modernized Enumeration System, it assists users to correctly
          process applications, including electronically capturing evidence (such as document numbers, issue and
          expiration dates) and interfacing with DHS verification data.
          Recommendation: We recommended that SSA work to establish an agreement with the Office of Child
          Support Enforcement (OCSE) whereby SSA submits nonwork SSN records to OCSE each quarter, and
          OCSE associates quarterly earnings with the records before returning them to SSA.
          Agency Response: SSA believes this recommendation may have merit.
          Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a driver’s license or
          motor vehicle registration. This policy change closes opportunities for illegal work. Also, SSA is continuing
          to work with DHS on a number of fronts to improve the enumeration process. Once SSA has assessed
          the impact of these activities, SSA will revisit this recommendation and determine how to best proceed
          within the constraints of SSA’s disclosure/privacy regulations and policies on working with and sharing
          information with OCSE and DHS for the purposes of identifying persons who work illegally and employers
          who hire such persons.
          Recommendation: We recommended that SSA use quarterly wage information or other suitable methods
          to prevent the issuance of replacement Social Security cards when there is evidence of illegal employment
          and to advise employers of nonwork status when verifying employee SSNs.
          Agency Response: SSA agreed that there should be tighter controls for issuing replacement cards to aliens
          who are not authorized to work.
          Corrective Action: Beginning December 16, 2005, SSA began limiting the number of replacement SSN
          cards an individual may receive to three per year and ten in a lifetime; revised instructions were released.
          To address the issuance of replacement SSN cards to unauthorized alien workers, SSA began verifying all
          immigration documents submitted for an SSN card with the DHS in June 2002. This verification must be


46  •  Appendices
October 1, 2005 Thru March 31, 2006	                                SSA Office of the Inspector General




done before any SSN card is issued. SSA continues to investigate other methods for tightening controls,
including the possibility of issuing revised instructions and reminders on the policy on issuing replacement
cards and on updating Numident records.
SSA and DHS jointly administer the Basic Pilot program, which was established under the Illegal Immigration
Reform and Immigrant Responsibility Act of 1996 as amended. Under the Basic Pilot, employers nationwide
may verify employment eligibility for newly hired employees by using an automated system that looks
at SSA’s and DHS’s records. SSA is also exploring additional mechanisms for helping DHS monitor
employment authorization.
Recommendation: We recommended that SSA match the quarterly nonwork earnings file with the ESF to
identify and report to DHS employers who consistently hire people who are not authorized for employment
and individuals who use, for employment, nonwork SSNs and false identities.
Agency Response: SSA believed the recommendation may have merit.
Corrective Action: SSA will revisit the recommendation once an assessment of the impact of previously
referenced activities that are underway or planned is complete.

Payments Made to Selected Representative Payees after the Deaths of Social
Security Beneficiaries (A-13-01-21028, 9/18/01)
Recommendation: We recommended that SSA resolve beneficiary date of death discrepancies we identified
and develop and implement procedures for the timely and accurate recordation of dates of death.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA has already begun to correct the records containing date of death discrepancies
and will review the procedures to prevent future occurrences of this nature. In addition, a new Death Alert,
Control and Update System (DACUS) process, which will identify deceased representative payees in the
Representative Payee System, will be implemented in the DACUS Release II. SSA anticipates that this
release will be scheduled by the fourth quarter of FY 2006.

Approval of Claimant Representatives and Fees Paid to Attorneys
(A-12-00-10027, 8/21/01)
Recommendation: We recommended that SSA collect each attorney’s SSN, name and address information
so that Internal Revenue Service (IRS) Form 1099 can be issued to attorneys.
Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS Form 1099 to
attorneys and is developing a business process for issuing these forms.
Corrective Action: SSA must develop the automation support necessary to meet the Internal Revenue
Code requirement that SSA issue Form-1099s to attorneys who receive attorney fees of $600 or more
in a taxable year. The Attorney Fee Task Force has established a revised target of issuing Form-1099s to
attorneys to January 2008 (representing attorney fees received during tax year 2007). SSA has initiated
planning and analysis required for development of the systems enhancements to collect and process the
appropriate attorney data required for issuing the Form-1099s. Implementation of the attorney database
is planned for the fall of 2006.




                                                                                                   Appendices  • 47
                Semiannual Report to Congress	                                 October 1, 2005 Thru March 31, 2006




                Glossary of Acronyms
                    Abbreviation                                      Definition
                 ALJ                       Administrative Law Judge
                 CDI                       Cooperative Disability Investigation
                 CDR                       Continuing Disability Review
                 CMP                       Civil Monetary Penalty
                 CSI                       Center for Security and Integrity
                 DACUS                     Death Alert, Control and Update System
                 DDS                       Disability Determination Service
                 DHS                       Department of Homeland Security
                 DoD                       Department of Defense
                 DOJ                       Department of Justice
                 DOL                       Department of Labor
                 EF                        Electronic Folder
                 ESF                       Earnings Suspense File
                 FECA                      Federal Employees Compensation Act
                 FY                        Fiscal Year
                 ICE                       Bureau of Immigration and Customs Enforcement
                 IDA                       Independence Day Assessment
                 IDMS                      Integrated Disability Management System
                 IGEL                      Inspector General Electronic Learning
                 IO                        Immediate Office
                 IRS                       Internal Revenue Service
                 MEF                       Master Earnings File
                 NASA                      National Aeronautics and Space Administration
                 NWALIEN                   Nonwork Alien
                 OA                        Office of Audit
                 OASDI                     Old-Age, Survivors, and Disability Insurance




48 • Glossary
October 1, 2005 Thru March 31, 2006	                           SSA Office of the Inspector General




  Abbreviation                                       Definition
OCCIG                     Office of the Chief Counsel to the Inspector General
OCSE                      Office of Child Support Enforcement
ODAR                      Office of Disability Adjudication and Review
OI                        Office of Investigations
OIG                       Office of the Inspector General
OQAPR                     Office of Quality Assurance and Professional Responsibility
ORM                       Office of Resource Management
PCIE                      President’s Council on Integrity and Efficiency
POMS                      Program Operations Manual System
PwC                       PricewaterhouseCoopers, LLP
SCCSD                     Scott County Community Services Department
SDW                       Special Disability Workload
SGA                       Substantial Gainful Activity
SSA                       Social Security Administration
SSI                       Supplemental Security Income
SSN                       Social Security Number
the Act                   Social Security Act
TIGTA                     Treasury Inspector General for Tax Administration
VA                        Veterans Affairs
WC                        Workers’ Compensation




                                                                                                     Glossary •   49
Semiannual Report to Congress	   October 1, 2005 Thru March 31, 2006
Social Security Administration
Office Of The Inspector General

                                             How to Report Fraud
    Mission Statement
                                   The SSA OIG Fraud Hotline offers a means for you
By conducting independent and
objective audits, evaluations,     to provide information on suspected fraud, waste, and
and investigations, we improve     abuse. If you know of current or potentially illegal
the SSA programs and               or improper activities involving SSA programs or
operations and protect them        personnel, we encourage you to contact the SSA OIG
against fraud, waste, and abuse.
                                   Fraud Hotline.
We provide timely, useful, and
reliable information and advice
                                       Call the SSA OIG Fraud Hotline toll-free number
to  Administration officials,
Congress, and the public.                    1-800-269-0271 (TTY: 1-866-501-2101)

                                           Write:	 Social Security Administration
     Vision and Values             	               Office of the Inspector General
We are agents of positive          	               Attention: SSA Fraud Hotline
change striving for continuous     	               P. O. Box 17768
improvement in SSA’s programs,     	               Baltimore, MD 21235
operations, and management by
proactively seeking new ways to                       Fax: 410-597-0118
prevent and deter fraud, waste,
and abuse. We are committed
to integrity and to achieving                  email: OIG.HOTLINE@ssa.gov
excellence by supporting an
environment that encourages        To obtain additional copies of this report or learn
employee development and           more about reporting fraud, please visit our website
retention, and fosters diversity
and innovation, while providing    at www.socialsecurity.gov/oig
a valuable public service.
Report Fraud, Waste, and Abuse

1-800-269-0271




     www.socialsecurity.gov/oig
                                         Social Security Administration
     SSA OIG Pub. No. 85-007          Office of the Inspector General
        Published May 2006        Semiannual Report to Congress
                                       October 1, 2005 – March 31, 2006
